 -cr--ceut        w.:3    i-Kun:                                                 TO:202 586 1660                  P.002/006


 DOE F 1325.

EFG (07.PO)

United States Government                                                      Department of Energy


memorandum
    DATE:        September 24, 2004
                                                                    Audit Report Number: OAS-L-04-24
REPLY TO
ATTN OF:        IG-35 (A04AL004)

SUBJECT:        Audit Report on "The National Nuclear Security
                                                               Administration's Secure Transportation Asset
                Program"

      TO:       Deputy Administrator for Defense Programs,
                                                           National Nuclear Security Administration
                INTRODUCTION AND OBIECTV              E

                The Secure Transportation Asset (STA) program
                                                               provides tlhe safe and secure transport of
                nuclear weapons, components, and matcrials
                                                           to meet projected Department of Energy (DOE),




               CONCLUSTONS AND OBSERVATIONS
               Although STA is able to meet current workload,
                                                                  we are concerned with the significant gap
               between customer planned shipments and their
                                                                actual performance. Additionally, there is a
               risk that STA may not meet projected workload
                                                                 requirements. iowever, there are several
               factors and processes in place that should
                                                          help STA mitigate the possibility of not meeting
               future customer requirements. Specifically, STA is hiring federal agents                     its
                                                                                          procuring additional
               vehicles, and will have theability to adjust overtime
               shipping demands.                                     and workload to better accommodate

               We noted a significant variance between customer planned
                                                                             performance and actual
              performance. For instance, of 87 packages Environmental
              in April 2004, not a single package was                       Management    (EM) planned
                                                        moved. Additionally, during the time period to ship
              2003 through. June 2004, STA customers, including EM, projected they                    October
                                                                                         would ship
              approximately 5,500 packages. However, about
              STA is challenged with matching its resources 4,100 packages were actually shipped. Since
                                                               to the needs of its customers, the gap
              projected and actual workload must be resolved. If the gap is not resolved, STA maybetween
                                                                                                      not be
              able to efficiently react and respond to not only the projected work but also the unexpected
              and unforeseen workload requirements.




                                                          1
SEP-24---004 09:35 FROM:                                                _       TO:202.586 166~                  P. 003006



 /
                 lAgent Availability

            There is a risk that STA may not meet projected workload because
                                                                               agent availability hours are
            less than the projected workload demmand. In Fiscal Year (FY) 2005, customers are projecting
            a workload of 489,731. hours, while STA will only have approximately 419,520 avaiabcle
            agent hours. In FY 2006 the same scenario will occur, as projected
                                                                               workload will be 510,411
            hours, and agent availability hours will only be
                                                             434,759.
           STA has been able to meet its current workload because actual
                                                                             workload has been less than
           projected workload. For instance, during the time period
           Transportation Shipping Requests never materialized         October 2003 through July 2004, 41
                                                                   due to customer cancellations or the
           cu.stomers not having the material ready for shipment. An STA
           instance the customer canceled a shipment the morning              official explained that in one
                                                                     the shipment was to occur.' Howevcr,
           STA officials did state that if all projected workload
                                                                  materialized, STA would not be able to
           meet the current workload.

           Miti gating Factors and Processes

           While the agent workforce is the limiting factor to meeting
                                                                        the projected workload, STA is
           recruiting new agents to meet the workload demand.
                                                                   Each year, STA conducts two
           recruitment classes with a goal of 40 recruits per class.
                                                                     STA has vet to meet this goal, but
           continues to recruit new agents to eventually meet the workload
                                                                              demand. The overall goal is
           to achieve an agent .workforce of 420 by FY 2008.

          In addition to recruiting new agents, STA is also
                                                             procuring additional vehicles to increase its
          fleet size to meet future workload. STA is working
                                                                to increase its Safeguard Transporters, and
          working to replace escort vehicles and amnored tractors.
                                                                      STA plans to achieve a Safeguard
          Transport fleet size of51 in FY 201 1, replace their aged escort
                                                                            vehicles during FY 2006, and
          receive their last replacement of armored tractors at
                                                                the end of FY 2004, which will assist in
          meeting projected workload demand.

           Although STA plans to reduce overtime, the hiring of
                                                                   additional agents will allow STA the
          flexibility to adjust overtime as the workload dictates.
                                                                    STA's current overtime target is 900
          hours per agent per year with the present staffing level. However,
         •tcnr goal is 600 hours of overtime per agent per year. This            as it hires agents, the long-
                                                                         will allow STA the capability to
          adjust overtime as needed.

          The Secure Transportation Asset Advisory
          Paclcaging Steering Committee (Committee)Board  (Board) and, the Secure Transportation and
                                                     were created to resolvc shipping conflicts using
          prioritization guidelines. The Board and Committee will:

             *     Resolve conflicts created by priority use of the
                                                                    STA;
             *    Review schedules and long-range workload
                                                           projections; and,
             * Review manpower and resource capabilities.




                                                     2
SEP-24-2004 09:36 I-ROM:                                                     TO:202 586 16608            -P.   004/006




           To date, the Board has not been challenged with resolving conflicts between
                                                                                        competing
           programs' shipping priorities. However, as unpredictable events may affect
                                                                                       future shipping
           requirements, we believe the assistance of the Board and Committee will enable
                                                                                            STA to better
           meet DOE and other customer requirements.

           SCOPE AND METHODOLOGY

           The audit was performed from June 16, 2004 to August 24, 2004
                                                                         at NNSA Headquarters,
           Washington, D.C.; DOE, Germantown, MD; and the Secure Transportation
                                                                                    Asset,
           Albuquerque, NM. Although we gathered data on STA's customers,
                                                                             we did not audit those
           customers.

           To accomplish-the audit objective, we:

              * Reviewed projected workload requirements for STA
                                                                 through FY 2010;
              *   Evaluated STA's agent recruitment plans and vehicles
                                                                       procurement plan;
              * Interviewed STA personnel and STA customer personnel;

              * Observed the Committee's quarterly meeting for th
                                                              4 quarter FY 2004; and,

              *   Determined.whether STA would be able to meet projected
                                                                         workload requirements.
          The audit was performed in accordance with generally accepted
                                                                             Government auditing
          standards for performance audits and included tests of internal controls
                                                                                    and compliance with
          laws and regulations to the extent necessary to satisfy the audit objective.
                                                                                       Because our review
          was limited, it would not necessarily have disclosed all internal control
                                                                                    deficiencies that may
          have existed at the time of our audit. We relied on information
                                                                            processed on automated data
          processing equipment to accomplish our audit objective, and therefore
                                                                                    we verified the validity
          of the automated data processing systems.

          Since no recommendations are being made in this Letter Report,
                                                                           a formal response is not
          required. We appreciate the cooperation of your staff during
                                                                       the audit.




                                                        Lawrence R. Ackerly, Division Director
                                                        National Nuclear Security A.dministration
                                                         Audits Division
                                                        Office of the Inspector General




                                                    3
SEP-24-2004 09:36 FROM:                                                   TO:202 586 1660   P.005/006




 t         cc: Director, Policy and Internal Controls Management, NA-66
               Team Leader, Audit Liaison Team, ME-100




                                                  4.
